SUPREME COURT OF THE UNITED STATES
October Term, 2021
DAVID ALEXANDRE,
Petitioner,
NO.

vs.

UNITED STATES OF AMERICA,

wee we He SH YH SY

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
NOW COMES the Petitioner/Defendant, David Alexandre, by counsel, pursuant to
Supreme Court Rule 39, and requests leave to proceed in forma pauperis. In support this
motion, Petitioner provides the following:
1. Petitioner stands convicted, following a bench trial in United States District Court
for the District of Maine with possession of a firearm in furtherance of drug trafficking, a
violation of 18 U.S.C. § 924(c). A timely appeal was filed with the First Circuit Court of
Appeals, which appeal was denied.
2. Petitioner is petitioning the Supreme Court for a Writ of Certiorari.
3, Petition was found to be indigent on May 17, 2018 and undersigned counsel,
Robert C. Andrews, Esq., was appointed by the District Court pursuant to the Criminal Justice
Act to represent Mr. Alexandre at trial in Maine. Counsel was also appointed by the First Circuit
Court of Appeals to represent Mr. Alexandre regarding an appeal. Attorney Andrews remains
Mr. Garcia-Zavala’s appointed counsel of record.

4. As counsel was appointed pursuant to the Criminal Justice Act at both the trial and
appellate level, leave to proceed in forma pauperis has not previously been sought.
WHEREFORE, it is requested that Petitioner's motion for leave to proceed in forma
pauperis be granted.

Dated at Portland, Maine on this 11th day of June, 2021.

Robert C. Andrews, Esq.

Attorney for David Alexandre, Petitioner
117 Auburn Street Suite 201

Portland, Maine 04103

(207) 879-9850
CERTIFICATE OF SERVICE

I, Robert C. Andrews, attorney for Petitioner David Alexandre, hereby certify that I have
caused, pursuant to Supreme Court Rule 39.2, one original of Petitioner's Motion for Leave to
Proceed Jn Forma Pauperis to be served upon the following:

Clerk of the Court

United States Supreme Court
1 First Street, NE
Washington, DC 20543

And

Julia Lipez, AUSA

100 Middle Street, East Tower, Suite 6
Portland, ME 04101

Said Motion having been sent to the above addresses by first class mail, postage prepaid, this
11th day of June 2021.

 

Robert C. Andrews, Esq.

Attorney for David Alexandre, Petitioner
117 Auburn Street Suite 201

Portland, Maine 04103

(207) 879-9850
